APPENDIX

[Statement by clerk who ABUSED HIS POWER
and VIOLATED oar CONSTITUTIONAL RIGHTS
by illegally striking the copy of the actual order of
dismissal from the Florida Filth District Court of
Appeal, and illegally stating for us to put into the
appendix only a copy ofan order that was not even
a response to a motion for rehearing. We made a
motion for Chief Justice Charles Canady to
unstrike the order, but we do not yet know if the
motion was ever given to him.]
Supreme Court of Florida
Wednesday, February 13, 2019
Case No.: SC181993
Lower Tribunal No(s).:
5D 18*49; 482016CA010428A0010X
Frances K. Konieczko, vs. Adventist Health Syset al.,
tem/Sunbelt, Inc., etc.
Petitioner(s)
Respondent^)
Petitioner’s appendix does not comply with Florida
Rule of Appellate Procedure 9.120(d) and is hereby
stricken. Petitioner is directed to file, within 10
days from the date of this order, an amended
appendix which contains only sl copy of the opinion
or order of the district court of appeal dated
October 30, 2018.
A True Copy Test: s/ John A. Tomasino Clerk,
Supreme Court
Supreme Court of the State of Florida

la

[Statement by clerk who ABUSED HIS POWER
and VIOLATED our CONSTITUTIONAL RIGHTS
by illegally dismissing the case without out there
having been any response from Chief Justice
Charles Canady regarding our motion to him, nor
any response at all to the Brief on Jurisdiction
that we had fried with the Florida Supreme
CourtX
Supreme Court of Florida
Wednesday, February 27, 2019
Case No.- SC18 1993
Lower Tribunal No(s).5D18-49; 482016CAO10428A0010X
Frances K. Konieczko, vs. Adventist Health Syset al.,
tem/Sunbelt, Inc., etc.
Petitioner(s)
Respondent(s)
This case is hereby dismissed. This Court lacks
jurisdiction to review an unelaborated decision
from a district court of appeal that is issued
without opinion or explanation or that merely cites
to an authority that is not a case pending review in,
or reversed or quashed by, this Court. See Wells v.
State, 132 So.3d 1110(Fla.2014)i Jackson v. State,
926 So.2d 1262(Fla.2006); Gandy v. State,846 So2d
114l(Fla,2003); Stallworth v. Moore, 827So.2d974
(Fla.2002); Harrison v. Hyster Co., 515So.2d
1279(Fla. 1987); Dodi Publ’g Co. v. Editorial Am.
S.A,385 So.2dl369 (Fla.1980);Jenkins v. State, 385
So.2dl369(Fla.1980).
A True Copy Test- s/ Mark Clayton, Chief Deputy
Clerk for John A Tomasino Clerk, Supreme Court
Supreme Court of the State of Florida
2a

[Decision byjudges who ABUSED THEIR POWER
and VIOLATED our CONSTITUTIONAL RIGHTS
by illegally dismissing the case, based upon their
false, fraudulent statements on October 16, 2018
and on the date below.]
in the District Court of Appeal of the State of
Florida Fifth District
Case No.: 5D18 0049
Frances K. Konieczko, Lawrence W. Konieczko,
Laurie F. Konieczko, Appellants,
vs.
Adventist Health System/Sunbelt, Inc. d/b/a
Florida Hospital Altamonte and d/b/a Florida
Hospital, Orlando, Florida, Appellee.
Date: October 23, 2018
By order of the court: Inasmuch as Appellants have
failed to comply the Florida Rules of Appellate
Procedure and the orders of this court, it is ordered
that the above-styled cause is hereby dismissed.
I hereby certify that the foregoing is (a true copy of)
the original Court order, s/ Joanne P. Simmons,
Clerk District Court of Appeal State of Florida
Fifth District
panel: judges Cohen. Torpy, and Lambert

3a

[Decision byjudges who ABUSED THFJR POWER
and VIOLATED our CONSTITUTIONAL RIGHTS
by illegally being complicit / in conspiracy with
tiie FALSE, FRAUDULENT STATEMENTS
issued by judges on October 16, 2018 and
October 23, 2018 and the obviously illegal
dismissal
based
upon
those
FALSE,
FRAUDULENT STATEMENTS. The “document”
referred to below is our very important
timely-Gled REPLY BRIEF, which
REFUTES egregious, unethical lies of the
appellees.]
in the District Court of Appeal of the State of
Florida Fifth District
Case No.: 5D18 0049
Frances K. Konieczko, Lawrence W. Konieczko,
Laurie F. Konieczko, Appellants,
vs.
Adventist Health System/Sunbelt, Inc, d/b/a
Florida Hospital Altamonte and d/b/a Florida
Hospital, Orlando, Florida, Appellee.
Date: October 30, 2018
By order of the court: Upon consideration that the
above-styled cause was dismissed by this court’s
order of October 23, 2018, it is ordered that no
action will be taken on the document and appendix
filed October 29, 2018.
I hereby certify that the foregoing is (a true copy oft
the original Court order, s/ Joanne P. Simmons,
Clerk District Court of Appeal State of Florida
Fifth District
panel- judges Orfinger, Berger, and Edwards
4a

Certificate of Service
No.
In The

Supreme Court of the United States

I hereby certify that three copies hereof will be mailed to the respondents'
attorneys, to the address of record, on August (o
2019.

Date: August (o , 2019
Frances K. Konieczko, Plaintiff/Petitioner
PO Box 536253, Orlando, FL 32853

*l/\f. ^crYU&*>Jbo

Date: August (o , 2019

Lawrence W. Konieczko, PE., PlaintifF/Petitioner
PO Box 536253, Orlando, FL 32853
Date: August G> , 2019

VyO

o

<C7\oujjxjlQ^

ieczko, Plainti
PI aintiff/Petitione
Laurie F. Konieczko.
etitioner
PO Box 536253, Orlando, FL 32853

Certificate of Compliance
No.
In The

Supreme Court of the United States
Frances K. Eonieczko,
Lawrence W. Eonieczko,
Laurie F. Eonieczko,
Petitioners,
v.
Adventist Health System/Sunbelt, Inc.,
sponsored by the Seventh-day Adventist Church,
d/b/a AdventHealth Altamonte Springs, formerly Florida Hospital Altamonte,
and d/b/a AdventHealth Orlando, formerly Florida Hospital Orlando,
Respondents.

As required by Supreme Court Rule 33.1(h), I hereby certify that the Petition
for a Writ of Certiorari contains S> *76# words, according to the Microsoft
Word Count feature utilized, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of peijury that the foregoing is true and correct

Date: August

, 2019
Frances K. Konieczko, Plaintiff/Petitioner
PO Box 536253, Orlando, FL 32853

Date: August (o , 2019

Date: August

O/u/te/wcje
Lawrence W. Konieczko, Plaintiff/Pewtioner
PO Box 536253, Orlando, FL 32853

Cd , 2019
Laurie F. Konieczko, Plai nti ff/Petitioner
PO Box 536253, Orlando, FL 32853

